Office of
Inspector General
                    Semiannual Report to the Congress
                             October 1, 2011
                                 through
                             March 31, 2012


                                 Number 46

                                April 20, 2012




                      FARM CREDIT ADMINISTRATION
Farm Credit Administration                                Office of Inspector General
                                                          1501 Farm Credit Drive
                                                          McLean, VA 22102-5090
                                                          (703) 883-4030




April 20, 2012


The Honorable Leland A. Strom, Chairman and Chief Executive Officer
The Honorable Kenneth A. Spearman, Board Member
The Honorable Jill Long Thompson, Board Member
Farm Credit Administration
1501 Farm Credit Drive
McLean, Virginia 22102-5090

Dear Chairman Strom and FCA Board Members Spearman and Long Thompson:

Enclosed is the semiannual report on the activities of the Farm Credit Administration’s (FCA or
Agency) Office of Inspector General (OIG) for the period October 1, 2011 through March 31, 2012.
This is the forty-sixth report since the establishment of the OIG on January 22, 1989.

I am submitting this report in accordance with the Inspector General Act of 1978, as amended (IG
Act). Section 5(b) of the IG Act requires that the FCA Board send this report to the appropriate
Congressional committees and subcommittees within 30 days after the date of this transmittal,
accompanied by management’s report on the status of audit, inspection, and/or evaluation action
items.

During this reporting period, the OIG issued the annual financial audit report. The OIG contracted
with the Bureau of the Public Debt for Brown & Company CPAs, PLLC to perform the audit of FCA’s
financial statements for fiscal year 2011. The audit delivered an unqualified opinion and was issued
November 7, 2011. Please refer to page 3 for further information.

Also, the OIG’s annual evaluation of the Agency’s compliance with the Federal Information Security
Management Act was completed. This annual evaluation was conducted by the OIG’s Senior
Information Technology Auditor and the report was issued November 15, 2011. There were no
action items as a result of this evaluation. Please refer to page 3 for further information.

On November 17, 2011, the OIG issued a final report on an audit of the Agency’s contracting
activities. The audit resulted in seven recommendations that were agreed to by Agency
management and implemented before the final audit report was issued. Please refer to page 3 for
further information.
                                                                                                     2

The one open action item at the beginning of this period from the inspection of the Agency’s
borrower complaint handling process was closed during this period. Please refer to page 4 for
further information.

If you have any questions, please call me at 4241 or 4030. I look forward to continuing a positive
relationship between the OIG and the FCA Board, which I view as a partnership striving to
strengthen FCA operations.

Respectfully,



Carl A. Clinefelter
Inspector General

Enclosure
                                                  OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                            OCTOBER 1. 2011 – MARCH 31, 2012



                       TABLE OF CONTENTS
EXECUTIVE SUMMARY…………………………………………………………….……………… 1

BACKGROUND……………………………………………………………………………………… 2
  FARM CREDIT ADMINISTRATION………………………………………………………………… 2
  FARM CREDIT SYSTEM…………………………………………………………………………… 2

AUDIT, INSPECTION, AND EVALUATION REPORTS ISSUED…..………………………….. 3
  FCA’S CONTRACTING ACTIVITIES……………………………………………………………………… 3
  FY 2011 INDEPENDENT FINANCIAL STATEMENT AUDIT OF FCA…………………………....... 3
  FY 2011 FEDERAL INFORMATION SECURITY MANAGEMENT ACT EVALUATION……………. 3

AUDITS, INSPECTIONS, AND EVALUATIONS IN PROGRESS….………..………………..... 4

STATUS OF UNIMPLEMENTED RECOMMENDATIONS……………………………………… 4

OIG OBSERVATIIONS ISSUED…………………………………………………………………... 4

INVESTIGATIONS…………………………………………………………………………………... 5

LEGISLATION AND REGULATIONS…………………………………………………………….. 5

OTHER ACTIVITIES………………………………………………………………………………... 6
  QUARTERLY SURVEY OF FARM CREDIT SYSTEM INSTITUTIONS……………………………. 6
  STAFF PARTICIPATION IN ACTIVITIES WITHIN THE INSPECTOR GENERAL COMMUNITY….. 6
  STAFF PARTICIPATION IN AGENCY ORGANIZATIONS…………………………………………. 7
  STAFF DEVELOPMENT……………………………………………………………………………. 7

ANNEX……………………………………………………………………………………………....... 7

APPENDICES
  APPENDIX A – INDEX OF REPORTING REQUIREMENTS……………………………………...                          8
  APPENDIX B – AUDIT, INSPECTION, AND EVALUATION REPORTS ISSUED………………....                9
  APPENDIX C – REPORTS WITH QUESTIONED COSTS………………………………………..                           10
  APPENDIX D – REPORTS WITH RECOMMENDATIONS THAT FUNDS
                 BE PUT TO BETTER USE…………………………………………………….                              11
  APPENDIX E – PEER REVIEWS CONDUCTED OF THIS OFFICE………………………………                        12
  APPENDIX F – PEER REVIEWS CONDUCTED BY THIS OFFICE………………………….……                       13
  APPENDIX G – FCA ORGANIZATIONAL CHART………………………..………………….……                            14
  APPENDIX H – OFFICE OF INSPECTOR GENERAL ORGANIZATIONAL CHART..………….....              15
  APPENDIX I – GLOSSARY OF TERMS.………..…………………………………………...…….                            16
                                                       OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                                 OCTOBER 1, 2011 – MARCH 31, 2012



EXECUTIVE SUMMARY

      This Semiannual Report to the Congress summarizes the activities and
      accomplishments of the Farm Credit Administration’s (FCA or Agency) Office of
      Inspector General (OIG) for the period October 1, 2011 through March 31, 2012.
      The OIG’s efforts were directed toward implementing the OIG’s fiscal year (FY) 2012
      strategic and operational plan and budget; performing audits, inspections, and
      evaluations of FCA programs and operations; conducting investigations, as
      necessary; independently and confidentially surveying Farm Credit System (FCS or
      System) institutions regarding the effectiveness of the Agency’s examination function
      and examiners; and providing objective, independent reporting and counsel to the
      FCA Board on FCA programs and operations.

      During this reporting period, the OIG issued two audit reports and one evaluation
      report. The OIG contracted with the Bureau of the Public Debt (BPD) for Brown and
      Company CPAs, PLLC (Brown & Co.) to perform the audit of FCA’s financial
      statements for FY 2011. The audit delivered an unqualified opinion and was issued
      November 7, 2011. See page 3 for further information.

      The audit of the FCA’s contracting activities was issued on November 17, 2011.
      There were seven recommendations that were made by the OIG and implemented
      by management before the final audit report was issued. See page 3 for further
      information.

      Also, the OIG issued an evaluation report on the Agency’s compliance with the
      Federal Information Security Management Act (FISMA). There were no
      recommendations as a result of this evaluation. This evaluation was conducted by
      the OIG’s Senior Information Technology (IT) Auditor. See page 3 for further
      information.

      Additionally, the OIG issued two quarterly reports and one FY summary report to the
      Chief Examiner and FCA Board on results of OIG surveys of System institutions
      regarding the examination function and the examiners. These reports were for the
      quarters ended September 30 and December 31, 2011. The FY summary report
      was for the FY ended September 30, 2011. In coordination with the Office of
      Examination, the survey was updated and revised beginning in FY 2012.

      The OIG maintains five positions: the Inspector General (IG), a Deputy Inspector
      General (DIG) and Counsel, a Senior Auditor, a Senior IT Auditor, and an
      Administrative Assistant. Appendix G and Appendix H reflect the organizational
      structure of FCA and the OIG, respectively.




                                          1
                                                          OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                                    OCTOBER 1, 2011 – MARCH 31, 2012



BACKGROUND

Farm Credit Administration

        The FCA is an independent Federal agency of the United States government
        responsible for the regulation and examination of FCS institutions chartered under
        the Farm Credit Act of 1971, as amended (Farm Credit Act). The FCA is also a
        “designated Federal entity” within the meaning of the Inspector General Act of 1978,
        as amended (IG Act).

        As a non-appropriated agency, FCA funds its expenses primarily through
        assessments to the institutions it regulates. The Agency’s FY 2012 budget is
        $60,812,899. Assessments by FCA to FCS institutions for FY 2012 were
        $54,100,000 with other sources of funding totaling $6,712,899. The OIG’s FY 2012
        budget is $1,144,346.

        At the end of this reporting period, FCA had 285 employees, about half of which are
        examiners located in five field offices. At the end of the prior semiannual reporting
        period, the Agency had 288 employees.

Farm Credit System

        The FCS is a Government-sponsored enterprise comprised of 4 Farm Credit banks
        and 84 lending associations, as of March 31, 2012, in all 50 states and Puerto Rico
        that primarily make loans to agriculture. The System raises funds by selling
        securities in the national and international money markets through its special
        purpose entity, the Federal Farm Credit Banks Funding Corporation. These
        securities are not guaranteed by the U.S. Government.

        The Federal Agricultural Mortgage Corporation (Farmer Mac), also a part of the
        FCS, is chartered by the Federal government to provide a secondary market for
        agricultural mortgage loans. Farmer Mac is publicly traded and issues its own debt
        securities.

        Additionally, there are four active service corporations organized under the Farm
        Credit Act that provide services to FCS entities and eligible borrowers.




                                            2
                                                          OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                                    OCTOBER 1, 2011 – MARCH 31, 2012




AUDIT, INSPECTION, AND EVALUATION REPORTS ISSUED

        The OIG conducts all audits in accordance with Government Auditing Standards
        issued by the Comptroller General of the United States for audits of Federal
        organizations, programs, activities, and functions. Inspections and evaluations are
        conducted in accordance with the Council of the Inspectors General on Integrity and
        Efficiency (CIGIE) Quality Standards for Inspections. Copies of most OIG reports
        are available on the OIG web site at www.fca.gov/home/inspector.html, or by contacting
        the OIG at (703) 883-4030, or by TTY at (703) 883-4359, or by e-mail at
        ig_information@fca.gov.


FCA’s Contracting Activities

        The audit’s objective was to determine whether the FCA's contracting
        environment is efficient and effective in acquiring products and services that
        provide the best value to FCA. There were seven recommendations by the OIG
        noted and implemented by management before the final audit report was issued
        on November 17, 2011.

FY 2011 Independent Financial Statement Audit of FCA

        The Accountability of Tax Dollars Act of 2002 required FCA and certain other
        agencies to submit to Congress and the Office of Management and Budget (OMB)
        an audited financial statement each fiscal year.

        In continuing to assist the Agency in meeting these requirements, the OIG
        contracted with the BPD for Brown & Co. to perform the audit of FCA’s financial
        statements for FY 2011. The audit resulted in an unqualified opinion and was issued
        November 7, 2011.


FY 2011 Federal Information Security Management Act Evaluation

        The evaluation of the Agency’s compliance with FISMA for FY 2011 was performed
        by the OIG’s Senior IT Auditor, using guidelines established by FISMA, OMB, and
        the National Institute of Standards and Technology. The report revealed no
        significant deficiencies and was issued November 15, 2011.




                                            3
                                                            OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                                      OCTOBER 1, 2011 – MARCH 31, 2012




AUDIT, INSPECTION, AND EVALUATIONS IN PROGRESS

         Planning is underway to announce one OIG audit and one OIG survey.


STATUS OF UNIMPLEMENTED RECOMMENDATIONS

         At the beginning of the reporting period, there was one open action item resulting
         from the OIG inspection on FCA’s Borrower Complaint Processing.



               Audit, Inspection, and Evaluation Agreed-Upon Actions and
                                    Recommendations

                                                                         Final
                                                   Open During
                                                                     Management           Open on
                   Report              Issued      this 6-Month
                                                                    Actions During       04/01/2012
                                                      Period
                                                                      this Period
          Borrower Complaint
                                      9/16/2010         1                   1                 0
            Processing

                            Total                       1                   1                 0




        The one open agreed-upon action from this inspection was closed on March 21, 2012.
        It was administrative in nature.


OIG OBSERVATION ISSUED

        OIG Observations are designed to be a quick mechanism to offer the Agency head
        suggestions on ways to strengthen Agency operations.


Observation FY 2012-01

        The OIG issued to the Chairman and Board Members on October 27, 2011,
        Observation FY 2012-01, entitled, The Need for Independent Objective Oversight of
        the Farm Credit System Insurance Corporation by a Statutorily Designated Inspector
        General.




                                             4
                                                        OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                                  OCTOBER 1, 2011 – MARCH 31, 2012



INVESTIG ATIONS

       Three investigations were opened during this reporting period. Two were
       unsubstantiated and closed. One is being preliminarily reviewed.

       OIG Hotline calls and emails dealing with borrower complaints concerning FCS
       institutions and other FCA issues were referred to the FCA office or other Federal
       agency responsible for reviewing such matters.


LEGISLATION AND REGULATIONS

       In furtherance of the OIG’s mandate to review existing and proposed legislation and
       regulations, the IG or DIG and Counsel attends joint briefings of the FCA Board on
       regulations at the proposed and final stages. The following were reviewed by the
       DIG and Counsel:

       Legislation

           1) S. 241, The Non-Federal Whistleblower Protection Act
           2) S. 300, Purchase and Travel Card Controls
           3) S. 652, The American Infrastructure and Finance Authority
           4) S. 801, Information Technology Investment Management Act of 2011
           5) S. 991 / H.R. 1949, Clean-Up Act
           6) S. 1222 / H.R. 2146, Digital Accountability and Transparency Act of 2011 or
              DATA Act

           7) S. 1549/H.R. 12, American Jobs Act

           8) S. 1280, Kate Puzy Peace Corp Volunteer Protection Act

           9) S. 2105, The Cybersecurity Act of 2012

          10) H.R. 514, FISA Sunset Extension Act of 2011 (Extends Patriot Act)

          11) H.R. 754, Intelligence Authorization Act for 2011

          12) H.R. 3371, High Performance Federal Building Act

          13) H.R. 3360, Contingency Operations and Interagency Enhancements

       Proposed Rule
           14) Disclosure to Investors




                                           5
                                                         OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                                   OCTOBER 1, 2011 – MARCH 31, 2012

           15) Liquidity and Funding
        Notice of Proposed Rulemaking
           16) Farmer Mac Investments and Liquidity Management
        Informational Memorandum
           17) Maximum Bank Director Compensation for 2012

           18) Notice of Draft Second Amended and Restated Market Access Agreement;
               Request for Comments


OTHER ACTIVITIES

Quarterly Survey of Farm Credit System Institutions

        The OIG administers an ongoing survey of FCS institutions regarding the quality and
        consistency of the Agency’s examination function and examiners. The OIG issues a
        quarterly report and, at the end of each FY, a summary report on the surveys’ results
        to the Chief Examiner and the FCA Board.

        During this 6-month period, the OIG sent surveys to the Audit Committee Chairmen
        and Chief Executive Officers of 28 FCS institutions. Quarterly reports for the 3-month
        periods ended September 30 and December 31, 2011, were issued by the OIG to the
        Chief Examiner and the FCA Board. A summary FY 2011 report as of September 30,
        2011, was also issued. In coordination with OE, the survey was updated and revised
        for issuance in FY 2012.

Staff Participation in Activities Within the Inspector General
Community

        OIG staff members are encouraged to take part in organizations that contribute to
        the mission of the Inspectors General community, as well as their individual
        professional development. Most staff members are actively involved in one or more
        professional organizations, as well as activities within the CIGIE.

        The IG serves as the Vice Chairperson of CIGIE, is a member of CIGIE’s Executive
        Council, helps chair the monthly meetings of all Inspectors General comprising
        CIGIE, and participates as a member of the CIGIE’s Inspection and Evaluation (I&E)
        Committee.

        The OIG DIG and Counsel meets monthly with counsels to the other Inspectors
        General. Counsel also attends DIG and Directors of Investigations meetings.




                                            6
                                                           OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                                     OCTOBER 1, 2011 – MARCH 31, 2012

        The OIG Senior Auditor and Senior IT Auditor attend Federal Audit Executive
        Committee meetings and conferences. The Senior Auditor participates as a
        member of the I&E Committee’s Roundtable. The Senior IT Auditor is actively
        involved in the IT Subcommittee of the Federal Audit Executive Committee and
        attends local ISACA (formerly known as Information Security and Control
        Association) meetings.

Staff Participation in Agency Organizations

        OIG employees are active on Agency workgroups and task forces, as appropriate.

Staff Development

        OIG employees continually seek ways to improve skills and become knowledgeable
        in the initiatives of the community of Inspectors General. Audit and legal staff must
        meet continuing education requirements. Individual development plans are used to
        identify long and short-term career goals along with specific training and
        developmental needs. These plans are geared to enhance individual skills in the
        performance of official duties and meet the criteria needed to achieve OIG
        performance goals and objectives.


ANNEX

        This annex is provided in accordance with the National Defense Authorization Act for
        FY 2008.

        This referenced statute requires all Inspectors General appointed under the IG Act to
        include an annex to their semiannual reports as follows:

           1) listing all contract audit reports issued during the reporting period containing
              significant audit findings;

           2) briefly describing the significant audit findings in the report; and

           3) specifying the amounts of costs identified in the report as unsupported,
              questioned, or disallowed.

        Significant audit findings are defined as unsupported, questioned, or disallowed
        costs in excess of $10,000,000, or other findings that the Inspector General
        determines to be significant. It defines contracts as a contract, an order placed
        under a task or delivery order contract, or a subcontract.

        No contract audit reports meeting these criteria were issued on behalf of the OIG
        during this reporting period.




                                             7
                                                                      OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                                                OCTOBER 1, 2011 – MARCH 31, 2012

                                                                                            APPENDIX A


                                 INDEX OF REPORTING REQUIREMENTS                                      Page

Section 4(a)(2)         Review of Legislation and Regulations                                          5–6

Section 5(a)(1)         Significant Problems, Abuses, and Deficiencies                                None

Section 5(a)(2)         Recommendations for Corrective Action                                         None

Section 5(a)(3)         Prior Recommendations Not Yet Implemented                                     None

Section 5(a)(4)         Matters Referred to Prosecutive Authorities                                   None
                        Summary of Instances Where Information Was Unreasonably
Section 5(a)(5)                                                                                       None
                           Refused or Not Provided
Section 5(a)(6)         List of OIG Audit/Inspection Reports Issued During the Period                    3

Section 5(a)(7)         Summary of Significant Reports Issued During the Period                          3

Section 5(a)(8)         Statistical Table on Management Decisions with Questioned Costs                 10
                        Statistical Table on Management Decisions on Recommendations
Section 5(a)(9)                                                                                         11
                            that Funds be put to Better Use
                        Summary of Each Audit Over Six Months Old for Which No
Section 5(a)(10)                                                                                      None
                            Management Decision Has Been Made
Section 5(a)(11)        Significant Revised Management Decisions                                      None
                        Significant Management Decisions with Which the Inspector
Section 5(a)(12)                                                                                      None
                           General Disagreed
Section 5(a)(13)        Compliance of Agency Financial Management System                                 3

Section 5(a)(14)(15)    Peer Reviews Conducted of this OIG                                              12

Section 5(a)(16)        Peer Reviews Conducted by this OIG                                              13




                       FY 2008 NATIONAL DEFENSE AUTHORIZATION ACT CITATION
                                                                                                      Page
                                         AND REQUIREMENT

Section 845        Review of Legislation and Regulations                                               5-6




                                                     8
                                                          OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                                    OCTOBER 1, 2011 – MARCH 31, 2012




                                                                                APPENDIX B




                    Audit, Inspection, and Evaluation Reports Issued

                                       Number of Agreed                     Recommendations
                                                          Questioned
                                         Upon Actions/                      That Funds Be Put
                                                            Costs
           Title of Report             Recommendations                        to Better Use

Financial Statement Audit for
                                              0                $0                    $0
    FY 2011
Federal Information Security
                                              0                $0                    $0
   Management Act for FY 2011
FCA’s Contracting Activities                  7                $0                    $0

                               Total          0                $0                    $0




                                              9
                                                                     OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                                               OCTOBER 1, 2011 – MARCH 31, 2012




                                                                                           APPENDIX C




                               Reports with Questioned Costs

                                                        Number                          Dollar Value

                                                           Recom-             Questioned       Unsupported
                                                Reports
                                                          mendations            Costs             Costs




A. For which no management decision has           0              0                 $0                $0
   been made by the commencement of
   the reporting period
                                                  0              0                 $0                $0
B. Which were issued during the reporting
   period                                         0              0                 $0                $0
Subtotals (A+B)
C. For which a management decision was            0              0                 $0                $0
   made during the reporting period
    (i) dollar value of disallowed costs          0              0                 $0                $0
    (ii) dollar value of costs not disallowed     0              0                 $0                $0
D. For which no management decision has
   been made by the end of the reporting
   period
                                                  0              0                 $0                $0
E. For which no management decision was
   made within six months of issuance
                                                  0              0                 $0                $0




                                                   10
                                                               OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                                         OCTOBER 1, 2011 – MARCH 31, 2012




                                                                                     APPENDIX D




      Reports with Recommendations that Funds be Put to Better Use
                                                                     Number of
                                                        Number of     Recom-
                                                         Reports     mendations           Dollar Value

A. For which no management decision has been
   made by the commencement of the reporting               0               0                   $0
   period

B. Which were issued during the reporting period           0               0                   $0

Subtotals (A + B)                                          0               0                   $0

C. For which a management decision was made
                                                           0               0                   $0
   during the reporting period

    (i) dollar value of recommendations that
                                                           0               0                   $0
        were agreed to by management

        --based on proposed management action              0               0                   $0

        --based on proposed legislative action             0               0                   $0

    (ii) dollar value of recommendations that
                                                           0               0                   $0
         were not agreed to by management

D. For which no management decision has been
                                                           0               0                   $0
   made by the end of the reporting period

E. For which no management decision was made
                                                           0               0                   $0
   within six months of issuance




                                                   11
                                                            OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                                      OCTOBER 1, 2011 – MARCH 31, 2012




                                                                                    APPENDIX E




                   Peer Reviews Conducted of this Office

         Peer Review Performed By                 Date of Report         Function           Peer
                                                                         Reviewed          Review
                                                                                           Rating

U.S. Commodity Futures Trading Commission
                                                  February 4, 2011          Audit           Pass
Office of Inspector General
U.S. Security and Exchange Commission
                                                 December 26, 2007      Investigations      Pass
Office of Inspector General




                                            12
                                                    OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                              OCTOBER 1, 2011 – MARCH 31, 2012

                                                                          APPENDIX F




                  Peer Reviews Conducted by this Office

              Peer Review Of              Date of Report     Function        Peer Review
                                                             Reviewed          Rating

Consumer Product Safety Commission
                                          May 23, 2011          Audit             Pass
  Office of Inspector General




                                     13
                                                                                                     OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                               OCTOBER 1, 2011 – MARCH 31, 2012




                                                                                                                                    APPENDIX G


                                                      FCA Organizational Chart

                                                        Farm Credit Administration Board
                                                                                                                        Office of
                                                                          Board                                    Inspector General1
                                                            Leland A. Strom, Chairman
                                                          Kenneth A. Spearman, Member
                                                           Jill Long Thompson, Member                               Carl A. Clinefelter


                      Secretary to the Board

                          Dale L. Aultman                                                                         Office of
                                                                                                              Congressional and
                                                                                                                Public Affairs

                        Equal Employment                                                                      Michael A. Stokke2
                                                              Office of the Chairman
                       and Inclusion Director                        and CEO
                           Thais Mootz                              Leland A. Strom                           Office of Secondary
                                                                                                               Market Oversight3

                        Designated Agency                                                                       Laurie A. Rea
                          Ethics Official

                       Wendy R. Laguarda



                      Special Advisor YBS &
                       Local Food Systems

                          Mark Johansen
                                                                    Office of the Chief
                                                                    Operating Officer

                                                                 William J. Hoffman




       Office of Management                 Office of Examination                            Office of                             Office of
              Services                                                                    Regulatory Policy                     General Counsel4
                                                S. Robert Coleman
         Stephen G. Smith                                                             Gary K. Van Meter                         Charles R. Rawls




1
    The Dodd-Frank Wall Street and Consumer Protection Act, Public Law 111-203, amended the Inspector General Act, 5 U.S.C. App 3,
    changing the meaning of “head of the designated Federal entity.” The effect is that the Inspector General now reports to the FCA Board.
    Prior to the amendment, the FCA Chairman was the “head of the designated Federal entity” under the IG Act and the IG reported to the
    Chairman.
2
    Serves as Executive Assistant to the Chairman.
3
    Reports to the Board for policy and to the CEO for administration.
4
    Maintains a confidential advisory relationship with each of the Board members.




                                                                               14
                                                          OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                                    OCTOBER 1, 2011 – MARCH 31, 2012



                                                                                APPENDIX H




   Office of Inspector General Organizational Chart



                              Inspector General

                              Carl A. Clinefelter



     Administrative Assistant

         Debra M. Miller




 Deputy Inspector                 Senior Auditor                       Senior Information
General and Counsel                                                    Technology Auditor
                             Veronica G. McCain
 Elizabeth M. Dean                                                       Tammy F. Rapp




                                                                           December 9, 2010
                           Carl A. Clinefelter, Inspector General          Date




                                           15
                                                           OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                                     OCTOBER 1, 2011 – MARCH 31, 2012



                                                                                  APPENDIX I



                                  Glossar y of Terms



Agency            – Farm Credit Administration
BPD               – Bureau of the Public Debt
Brown & Co.       – Brown & Company CPAs, PLLC
CIGIE             – Council of the Inspectors General on Integrity and Efficiency
DIG               – Deputy Inspector General
Farm Credit Act   – Farm Credit Act of 1971, as amended
Farmer Mac        – Federal Agricultural Mortgage Corporation
FCA               – Farm Credit Administration
FCS               – Farm Credit System
FISMA             – Federal Information Security Management Act
FY                – Fiscal Year
H.R.              – House Resolution
IG                – Inspector General
IG Act            – Inspector General Act of 1978, as amended
I&E               – Inspection and Evaluation
ISACA             – Information Security and Control Association
IT                – Information Technology
OE                – Office of Examination
OIG               – Office of Inspector General
OMB               – Office of Management and Budget
System            – Farm Credit System




                                             16
                                    OIG SEMIANNUAL REPORT TO THE CONGRESS
                                              OCTOBER 1, 2011 – MARCH 31, 2012




        R E P O R T
Fraud     |   Waste    |    Abuse    |    Mismanagement




        FARM CREDIT ADMINISTRATION
        OFFICE OF INSPECTOR GENERAL

• Phone: Toll Free (800) 437-7322; (703) 883-4316

• Fax:        (703) 883-4059

• E-mail: fca-ig-hotline@rcn.com

• Mail:       Farm Credit Administration
              Office of Inspector General
              1501 Farm Credit Drive
              McLean, VA 22102-5090




                           17
